Route 128 Station Audit
                                                                       NATIONAl. H,\II.\WAl) l',\SSENGER CORPORATION
                                                                                 10 G SHeet NE, 3W300, WashIngton, PC ?OOO?




    Date      August 31, 2009
              Paul F. O'Mam
                                                              From    Gaty
                                                                             ,
                                                                               J ,
                                                                             EiP~D?
                                                                                 _ ~I
                                                                                   C'     f": .. ~/e~'
                                                                                              lilty IG - Au(
                                                                                                              ~
                                                                                                              I~
       To                                                Department   omcc of Inspcctor Gcneral
              Superintendent Passenger Services
                                                                      Routc 128 Station Audit
                                                            SubleCi
                                                                      Rcport1l305-2009
                                                                 cc   Distribution



r...lcssngc
              The Office of Inspector General has compleled " review of the Route 128 Station Ticket Office.
              Our objectives were to: (i) determinc compliance with daily station aceounling procedures;
              (ii) verifY assigned working funds, ticket stock and other assets; (iii) evaluate safeguards over
              these assets; and (iv) appraise the efficiency of stat ion operations.

              The rcsults of our audit were discussed with Stephen Brennan, District Manager Stations on
              August 20,2009. Since you have provided us with your management action plan, which is
              incorporated into this report, no response to this final report is required. If you should have any
              additional comments or questions regarding this report, please let us know.

              Amtrak OIG is required to make this report available to the public under the Inspector General
              Reform Act of 2008, 110 P.LA09; 122 Stat. 4302. To the extent that you believe this report
              contains confidential 01' proprietary information that should be withheld from public release, you
              must take the following actions 110 lnter IIlIIn September 14, 2009: I) highlight any words 01'
              phrases recommended for redaction; and, 2) provide a written detailed justification for each of
              yoill' recommendations. If you do not provide written recommendations by September 14, 2009,
              the report will be made publicly available without your redaction on the date specified on the
              report.



              Distribution:
              Michael .J. DeCataldo, General Superintendent Northeast Division
              Stephen F. Brennan, District Manager Stations
              Roy P. Wiegand, Senior Director-Audits
            Route 128 Station Audit




               Report Addressed To:


                  PlllIll'" O'Mara
         Superintendent Passenger Services
      National Railroad Passenger Corporation
            Two South Station, S"' Floor
            Boston, Massachusetts 02110




                 Report Issued By:

NATIONAL RAILROAD PASSENGER CORPORATION
   OFFICE OF INSPECTOR GENERAL - AUDITS
              10 G STREET, N.E.
           WASHINGTON, DC 20002

       DATE OF REPORT: Augnst 31, 2009
         REPORT NUMBER: 305-2009
 PUBLIC AVAILABILITY DATE: September 30, 2009
                                     Route 128 Station Audit

                                       Executive Summary


The Office ofInspector General performed a station audit of the ROllte 128 Station Ticket Office
located in Westwood, Massachusetts. The purpose of our review was to:

   •    Test for compliance with station accounting and reporting procedures.
   •    VerifY assigned working ftlllds, ticket stock and other assets.
   •    Evaluate safeguards over these assets.
   •    Appraise the efficicncy of station operations.

Our review indicated that the Route 128 Station ticket office is in compliance with station
accOllllting mId reporting procedures. Therefore, the report does not contain any formal audit
findings. However, we made the following observations which are reported for managcmcnt's
infol1nation:

    •   Die stamp imprints were not clearly displayed on tickets (ink or cleaning issue).
    •   Exchange ticket transactions do not always show the amount of an upgrade on the original
        cancelled ticket.
    •   The Control Logs for manually issued tickets needs to be completed properly and the
        Station's copy of tile ticket should be maintained with the Lead Ticket Agent.
    •   Training is needed for Ticket Agents regarding the propel' reporting of manually issued
        tickets for Group Travel transactions, and the accounting of the transaction itl the Automated
        Station Accounting Program (ASAP) and in the ftmctional usage of ASAP.
    •   Passenger addresses should he recorded 011 refund documents.
    •   Maintenance is needed to correct excessive rust to the sides of escalators that service the
        tracks.

The above observations were discussed with Station Management at the time of om audit and
c01'l'ective procedures were initiated. The details of our evaluation are presented in this report
following the executive summmy.
                                            Route 128 Station Audit
                                                    Repo!'t # 305-2009

                                           TABLE OF CONTENTS

                                                                                                                                                             PAGE

I.         BACI(GROUND ................................................................................................... 1

n.         OBJECTNE .......................................................................................................... 1

III.      SCOPE ...................................................... ,................... ,........................................ 1

IV.       METIIODOI.JOGY ....................................................... ,........................................ 2

V.        EVALUA nON OF INTERNAL CONTROLS .................................................. 2

VI.        PRIOR AUDI'l' COVERAGE .................... ,..............                      1110 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   2

VII.       OBSERVATIONS ............. ,......................................... ,......................................... 3

Appendix A: ....................................................................................................................... 5
                                    Route 128 Station Audit
                                         RellO,.! # 305-2009


I.     BACKGROUND

Responsibilities of the Route 128 Station ticket officc cmployees include selling tickets and
assisting passengers. Procedures governing station accounting are continually updated. Some
procedures have been transferred 01' are in the process of being transferred to Amtrak's Intranet;
such as the Station Service Standards and Operations Manual and ARROW Bulletins. Other
proccdures are contained in the Reservation, Ticketing, and Station Procedures (RTSP) Manual.
Each ticket office employee should be familiar with these procedures as they apply to their
assigned duties.

Ticket office employees prepare and balance an automated Amtrak Station Sales Report daily.
Sales transactions, refilllds, exchanges, and other activities are recorded on designated Jines and
lllllst be supported by appropriate documemation. A lcad clerk 01' agent prints and reconciles the
summalY station sales report to the supporting doculllentation (usually the following day) and
ensures that all monies are remitted. Cash receipts collected by ticket office employees are
counted and stored in a station safe until picked up by a regularly scheduled armored car servicc.

  Amtrak Station Salcs Rcports arc electronically transmitted to Corporate. The respective
  departments such as Revenue Accounting, Bank Reconciliation, Treasury, and Finance, can
  access the data that they need to prepare their reports. The Station Salcs Rcport supporting
  documents are sent to ACS Corporation (ACS) in EI Paso, Texas for processing. ACS images all
. of the station sales support documents and transfers the images to a Station Sales system.

The Route 128 Station ticket office was selected for audit because of a recent misappropriation
offtmds already detected by station management. While the District Manager was processing a
elment day's bank deposit, during the Lead Ticket Agent's absents, he observed several days of
missing cash deposits, at which time: (i) Amtrak Police was notified; (ii) an investigation was
conducted; (iii) the Lead Ticket Agent was confronted regarding the missing funds and resigned;
and, (iv) full restitution of the missing ftmds was made to Amtrak.

II.     OBJECTIVE

The objectives of this review were to: (i) determine compliance with daily station accounting
procedures; (ii) verity assigned working fimds, ticket stock and other assets; (iii) evaluate
safeguards over these assets; and (iv) appraise the efficiency of stat ion operations.


III.    SCOPE

 The audit work encompassed a cutoff ofal! sales activity on July 14, 2009, including an
inventory ofticket stock, and a count of working fimds and cash items on hand. Station sales
activities were tested for accuracy of reporting and compliance with station accoullting
procedures. Other activitics; such as a verification of daily deposits, over and short ledgers,
emergency exchange vOllchers, and miscellaneous expenses were reviewed.

                                            Page 1 of?
                                      Route 128 Station Audit
                                           Report # 305·2009



We conduct this perfonmmce audit in accordance with generally accepted govenunent auditing
standards. Those standards rcquire that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectivcs. We believe that the evidence obtained provided a reasonable basis for our
findings and conchlsions based on our audit objectivcs.


IV.       METHODOLOGY

The methodology used to gather and analyze evidence included the following:

      •   A review of original documentation supporting station sales transactions;
      •   A verification and reconciliation of assigned working funds and ticket stock;
      •   A review of rcmittanccs tor accmacy and timeliness and compliance with procedures;
      •   An evaluation of the over and short reporting activity;
      •   A testing of records and reports for adherence to policies and procedures;
      •   An appraisal of the safeguarding of company assets; and
      •   An observation of the efficiency, cffcctiveness and safety oflocal operations.

V.        EVALUATION OF INTERNAL CONTROLS

We did not perform an evaluation of management's system of internal controls. A surprise audit
of the Route 128 Station Ticket Office was conducted on July 14, 2009. We reviewed station
operations to assess compliance with the system of internal controls including prescribed daily
station procedures. We also appraised the efficiency of station operations, and verified assigned
working funds and ticket stock. All assigned working funds were satisfactorily reconciled to the
Station's Working Fund Custody Transfer form.

VI.       PRIOR AUDIT COVERAGE

Audit Report 1101 ·302, was issued on December 21,2000 and highlighted the following
exceptions:

      •   Mini. Audits were not being conducted at this station.
      •   1,410 Manual Book tickets were not accounted for and listed as missing.
      •   All employee's personal check was cashed the day prior to the audit and held in a ticket
          ngcnl's cash drawer.
      •   Timely transfers offlmds from the station's local bank account, to Amtrak's
          concentration account were not being made.
      •   Unauthorized employee expenses were being processed as station expenses on
          the Miscellaneous Station Expense Report.




                                              Page 2 of7
                                       Route 128 Station Audit
                                            RCJlOl't # 305-2009

VII.    OBSERVATIONS

As a result of Ou!' detailed verification of the previous day's sales activity and our observations of
Ticket Agents' activity dUl'ing om cut off period, we noted the following:

   • The Control Logs for manually issued tickets needs to be completed properly and the
     Station's copy of the ticket should be maintained with the Lead Ticket Agent. During OUl'
     review we noted that the Logs were being maintained correctly but there was no
     explanation for the disposition of 10 manually issued tickets and the Station's copy was
     missing for 8 of the same tickets.
   • Die stamp imprints were not clearly displayed on tickets (ink 01' cleaning issue).
   • Exchange tickets did not always show the amount of an upgrade on the original ticket.
   • Training is needed for Ticket Agents regarding the propel' reporting of manually issued
     tickets for Group Travel transactions, and the accounting of the transaction in the
     Automated Station Accounting ]'rogram (ASAP) and in the functional usagc of ASAP.
   • Passcnger addresses should be recorded on refund docllments.
   • Maintenance is needed to correct excessive mst to the sides of the escalators that service
     the tracks. (Sec Appendix A).

The above observations were discussed with Station Management during our review and
corrective actions were initiated before am departure.

Management's Comment

Listed below arc management's actions to formally address the bulleted items listed in the
Observations section above:
    •   Control logs for manually issued tickets - the Lead Ticket Agent has been instructed to review
        the log (NRPC 277) periodically (minimum once a month) to ensure that manual ticket stock
        is in sequential order and that all issued stock is properly identified by agent including date of
        issue. The lead agent will enSllre station copies of lllanllal tickets are kept with the daily work
        before the monthly reports arc completed and stored.
    •   Rcvicwcd with Lead Ticket Agent die stamps and die daters. Determined that several die
        plates are worn down to the point that it is dillicult to read. Ordering replacement stumps and
        ribbons. Also ordering 2 new electronic die daters.
    •   Instructed Lead Clerk to review with agents procedures related to exchange tickets and review
        all exchange tickets to ensure upgrade amollnt is listed.
    • Lead Agent has provided job aids on the correct procedure to follow regarding the issuance
      and accounting of group tickets. Copies with notations on ASAP line reporting are available,
      agents providcd instl'llction.




                                               Page :l ori
                                      Route 128 Station Audit
                                           Report # 305·2009

   •   Passenger addresses should bc rccordcd in refulld documents, This observation was made on
       refund requests which require the station to mail·in the renmd to Rcvenue Accounting,
       Agents havc becn advised that the address must be listed on all manual renmd forms,
   •   Maintenance on cleaning excessive nlst on tile sides of tile escalators on Tracks I and 2, This
       rust is a result of the escalators' exposure to thc wcather, The material used on these units was
       not designed for exterior usc in the northeast climate, The District Manager has a pending
       quote to renlrbish all stainless steel surfaces which are exposed to the elements. This quote
       was received on June 16, 2009 from                                       , The cost to remove
       and refinish the escalators is.                                  ''', The cost exceeds the
       allowable amount to proceed without a purchasc requisition, Procurement will need to solicit
       additional bids.


Auditor's COlllment
We agree with management's response to 0\11' Obselvations listed in section VII of this report.


This concludes our rcport,


Audit Staff:

                  Audit Project Supervisor
                     , Senior Dil'ector - Audits



    Ah:.L~_
~[egaIJ~
Senior Director- Audits




                                              Page 4 of7
Route 128 Station Audit
    RCl'orlil 305-20U9



    Appendix A:




      Page 5 or?
     Route 128 Station Audit
        ncpo)'t # 305-2009




           ""+
                          ..
              •




                     J         ...
-
'.




           Page 60f7
Route 128 Stntloll Audit
    Repol't 1/ 305-2009




       Page 7 of?
